<html>
<title> - FULL COMMITTEE MARKUP OF LEGISLATION MODERNIZING THE SBIR AND STTR PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
                        FULL COMMITTEE MARKUP OF
                        LEGISLATION MODERNIZING
                       THE SBIR AND STTR PROGRAMS

=======================================================================

                                HEARING

                               before the


                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             June 25, 2009

                               __________

                               [GRAPHIC] [TIFF OMITTED] TONGRESS.#13
                               

            Small Business Committee Document Number 111-033
Available via the GPO Website: http://www.access.gpo.gov/congress/house


                  U.S. GOVERNMENT PRINTING OFFICE
50-469                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                   HOUSE COMMITTEE ON SMALL BUSINESS

                NYDIA M. VELAZQUEZ, New York, Chairwoman

                          DENNIS MOORE, Kansas

                      HEATH SHULER, North Carolina

                     KATHY DAHLKEMPER, Pennsylvania

                         KURT SCHRADER, Oregon

                        ANN KIRKPATRICK, Arizona

                          GLENN NYE, Virginia

                         MICHAEL MICHAUD, Maine

                         MELISSA BEAN, Illinois

                         DAN LIPINSKI, Illinois

                      JASON ALTMIRE, Pennsylvania

                        YVETTE CLARKE, New York

                        BRAD ELLSWORTH, Indiana

                        JOE SESTAK, Pennsylvania

                         BOBBY BRIGHT, Alabama

                        PARKER GRIFFITH, Alabama

                      DEBORAH HALVORSON, Illinois

                  SAM GRAVES, Missouri, Ranking Member

                      ROSCOE G. BARTLETT, Maryland

                         W. TODD AKIN, Missouri

                            STEVE KING, Iowa

                     LYNN A. WESTMORELAND, Georgia

                          LOUIE GOHMERT, Texas

                         MARY FALLIN, Oklahoma

                         VERN BUCHANAN, Florida

                      BLAINE LUETKEMEYER, Missouri

                         AARON SCHOCK, Illinois

                      GLENN THOMPSON, Pennsylvania

                         MIKE COFFMAN, Colorado

                  Michael Day, Majority Staff Director

                 Adam Minehardt, Deputy Staff Director

                      Tim Slattery, Chief Counsel

                  Karen Haas, Minority Staff Director

        .........................................................

                                  (ii)

  
?

                         STANDING SUBCOMMITTEES

                                 ______

               Subcommittee on Contracting and Technology

                     GLENN NYE, Virginia, Chairman


YVETTE CLARKE, New York              AARON SCHOCK, Illinois, Ranking
BRAD ELLSWORTH, Indiana              ROSCOE BARTLETT, Maryland
KURT SCHRADER, Oregon                TODD AKIN, Missouri
DEBORAH HALVORSON, Illinois          MARY FALLIN, Oklahoma
MELISSA BEAN, Illinois               GLENN THOMPSON, Pennsylvania
JOE SESTAK, Pennsylvania
PARKER GRIFFITH, Alabama

                                 ______

                    Subcommittee on Finance and Tax

                    KURT SCHRADER, Oregon, Chairman


DENNIS MOORE, Kansas                 VERN BUCHANAN, Florida, Ranking
ANN KIRKPATRICK, Arizona             STEVE KING, Iowa
MELISSA BEAN, Illinois               TODD AKIN, Missouri
JOE SESTAK, Pennsylvania             BLAINE LUETKEMEYER, Missouri
DEBORAH HALVORSON, Illinois          MIKE COFFMAN, Colorado
GLENN NYE, Virginia
MICHAEL MICHAUD, Maine

                                 ______

              Subcommittee on Investigations and Oversight

                 JASON ALTMIRE, Pennsylvania, Chairman


HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma, Ranking
BRAD ELLSWORTH, Indiana              LOUIE GOHMERT, Texas
PARKER GRIFFITH, Alabama

                                 (iii)

  
?

               Subcommittee on Regulations and Healthcare

               KATHY DAHLKEMPER, Pennsylvania, Chairwoman


DAN LIPINSKI, Illinois               LYNN WESTMORELAND, Georgia, 
PARKER GRIFFITH, Alabama             Ranking
MELISSA BEAN, Illinois               STEVE KING, Iowa
JASON ALTMIRE, Pennsylvania          VERN BUCHANAN, Florida
JOE SESTAK, Pennsylvania             GLENN THOMPSON, Pennsylvania
BOBBY BRIGHT, Alabama                MIKE COFFMAN, Colorado

                                 ______

     Subcommittee on Rural Development, Entrepreneurship and Trade

                  HEATH SHULER, Pennsylvania, Chairman


MICHAEL MICHAUD, Maine               BLAINE LUETKEMEYER, Missouri, 
BOBBY BRIGHT, Alabama                Ranking
KATHY DAHLKEMPER, Pennsylvania       STEVE KING, Iowa
ANN KIRKPATRICK, Arizona             AARON SCHOCK, Illinois
YVETTE CLARKE, New York              GLENN THOMPSON, Pennsylvania

                                  (iv)

  
?

                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page

Velazquez, Hon. Nydia M..........................................     1
Graves, Hon. Sam.................................................     2

                                APPENDIX


Documents for the Record:
H.R. 2965, The Enhancing Small Business Research and Innovation 
  Act of 2009....................................................    19
Amendment to H.R. 2965 Offered by Mr. Akin.......................    56
Amendment to H.R. 2965 Offered by Ms. Velazquez..................    57
Amendment to H.R. 2965 Offered by Mr. King.......................    58
Amendment to H.R. 2965 Offered by Mr. King.......................    59

                                  (v)

  


                        FULL COMMITTEE MARKUP OF
                        LEGISLATION MODERNIZING
                       THE SBIR AND STTR PROGRAMS

                              ----------                              


                        Thursday, June 25, 2009

                     U.S. House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2360 Rayburn House Office Building, Hon. Nydia Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Moore, Shuler, 
Dahlkemper, Schrader, Kirkpatrick, Nye, Michaud, Altmire, 
Clarke, Ellsworth, Bright, Griffith, Halvorson, Graves, Akin, 
King, Fallin, Luetkemeyer, Schock, Thompson and Coffman.
    Chairwoman Velazquez. I am pleased to call this morning's 
hearing to order.
    Today, the Committee will consider legislation that will 
modernize the Small Business Innovation Research and Small 
Business Technology Transfer programs. These initiatives, which 
were last updated eight years ago, are fundamental to creating 
new technologies as well as new jobs. With national 
unemployment at a staggering 9.4 percent--and many states well 
beyond this level--now is the right time to strengthen and 
broaden these programs.
    I want to thank Chairman Nye and Ranking Member Schock, of 
the Subcommittee on Contracting and Technology, and Chairman 
Jason Altmire on the
    Subcommittee on Investigation and Oversight, for 
shepherding this legislation through Committee. In addition, I 
would like to also thank the four Committee members whose bills 
have been incorporated into H.R. 2965, Representatives Bright, 
Halvorson, Schock, and Ranking Member Graves.
    SBIR is the largest dedicated source of federal R&D funds 
for small businesses. Under the program, federal agencies with 
extramural research budgets of $100 million or more dedicate 
2.5 percent of their overall research budget for technology 
development contracts toward small business awards.
    Currently, 11 federal departments are required to 
participate in the program. They combine to award over $2 
billion in grants annually to small firms in all 50 states and 
the District of Columbia and Puerto Rico, funding thousands of 
projects and helping over 1,500 new companies get off the 
ground every year.
    Under the STTR program, government agencies that spend more 
than $1 billion annually in extramural R&D dedicate a 
percentage of their research budget to supporting joint 
proposals between small firms and nonprofit research 
organizations, such as universities. These partnerships are 
critical to transferring technology from universities to the 
private sector, and for creating jobs in local communities.
    The continued success of the SBIR and STTR programs is 
dependent on three primary issues. First, the program must 
attract new applicants. Second, awardees must have adequate 
access to investment from all types of capital. Third, more 
needs to be done to bring these breakthrough products to the 
marketplace, meaning we must promote greater commercialization 
in these initiatives.
    The bill before us today addresses all of these issues and 
has the support of the Biotech Industry Organization, the 
Advanced Medical Technology Association, the Parkinson's Action 
Network, the National Venture Capital Association, the Cystic 
Fibrosis Foundation, the U.S. Women's Chamber of Commerce, and 
the Medical Device Manufacturer's Association. Modernizing the 
SBIR and STTR programs will make them more responsive to the 
needs of today's small businesses. This is absolutely critical 
to creating more jobs and growth in our economy.
    And now I yield to Ranking Member Graves for his opening 
remarks.
    Mr. Graves. Good morning. Thank you, Madam Chair, for 
holding this markup. And I appreciate your leadership on this 
issue and commend you and your staff for maintaining a very 
strong-spirited bipartisanship as we continue our work on the 
SBIR and STTR programs.
    Innovation happens every day. Whether it is new development 
in the fight against cancer or a new computer system designed 
to protect our soldiers, more and more of them are continuing--
or coming from America's small businesses. The SBIR and STTR 
programs help to take ideas and turn them into practical 
products.
    Our Committee has worked hard to produce the legislation we 
have before us today. We have held several hearings on this 
topic since April, inviting witnesses from both the Federal 
Government and the private sector to discuss why these programs 
have been so successful and what is needed to be updated to 
make the programs even better.
    I am happy to say that many of the ideas presented improve 
the--many of the ideas presented to improve the program have 
found their way into this legislation. For example, the topic 
that dominated much of the discussion at our hearings was the 
appropriate level of venture capital involvement in the SBIR 
program. Our legislation addresses this. Fortunately, there 
have been several misconceptions about this provision in the 
bill.
    As many of you know, in 2003, the SBA reversed a 20- year 
old policy by ruling that small businesses that are majority 
owned by venture capital companies can no longer compete for 
grants under the SBIR program, regardless of how few employees 
the company has. This has jeopardized the development of 
innovative treatments, therapies, and technology.
    The goal of this bill is to ensure that America's small 
businesses continue to be world leaders in innovative research 
and to provide the best small companies with the greatest 
commercialization potential access--greatest commercialization 
potential access to the SBIR and STTR programs.
    In addition, access to capital is a real concern for small 
businesses across all industries, and the bill provides small 
firms another path to acquire the capital they need to be 
successful. It is important to keep in mind that these programs 
will remain open for competition among all small companies, and 
federal agencies will choose the best businesses to win the 
awards.
    H.R. 2965 contains significant and dedicated safeguards to 
ensure that the SBIR program remains a small business program. 
It forbids a small business with one venture capital firm 
having over 50 percent ownership from qualifying for small 
business awards. The bill also has protections that prohibit 
large companies from taking control of the small company and 
receiving small business grants.
    Additionally, our comprehensive bill takes significant 
strides to bring the programs into the 21st century by 
increasing the award sizes, enhancing data collection and 
reporting requirements for better oversight, and providing 
federal agencies a mechanism in which they can meet and share 
best practices.
    Madam Chair, again, I appreciate your leadership on this 
issue, and I look forward to our work on this issue and yield 
back.
    Chairwoman Velazquez. Thank you, Mr. Graves.
    Are there any other members that wish to be recognized for 
the purpose of opening remarks? Ms. Dahlkemper.
    Ms. Dahlkemper. Thank you, Madam Chairwoman. The impending 
expiration of the Small Business Innovation Research Program in 
July compels us to examine the program before we act to 
reauthorize it. Small business is a crucial sector of the 
economy, yet before SBIR the vast majority of small firms were 
unable to secure any research and development funding. Since 
its inception in 1982, SBIR has been a tremendous success. SBIR 
facilitates high-risk, high-reward research that does--not only 
spurs innovation but also creates jobs.
    While I intend on voting for the legislation before us, I 
did want to raise one important issue that I am concerned 
about. Title I of the Enhancing Small Business Research and 
Innovation Act of 2009 makes majority-owned venture capitalists 
eligible for the SBIR program, as long as there is no single 
venture capitalist owning more than 50 percent of the business 
concern.
    While I appreciate and understand the need for venture 
capitalists in certain areas, particularly in biotechnology, I 
am concerned that throwing open the door to all SBIR programs 
without any limit might unfairly disadvantage small 
conventional businesses. For instance, in my district in 
Western Pennsylvania, we have very few venture capitalists, and 
more limited access to venture capitalists from outside of the 
district, yet Pennsylvania's small businesses rely on and 
benefit from SBIR funding, garnering 271 awards totalling $74.8 
million in 2005.
    I would much prefer the stance that our colleagues in the 
Senate have taken, limiting majority-owned venture capitalist 
companies to 18 percent for NIH grants and 8 percent for all 
other federal agencies. These numbers would be in line with 
what a 2006 GAO report found regarding venture capitalist 
investment. If we do not implement a cap, at the very least I 
think we should study the impact of this change on conventional 
small businesses.
    Thank you, and I yield back my time.
    Chairwoman Velazquez. Are there any other members who seek 
recognition?
    Mr. King. Madam Chair?
    Chairwoman Velazquez. Mr. Nye? Oh, yes.
    Mr. King. At the appropriate time I have an amendment.
    Chairwoman Velazquez. Yes.
    Mr. King. Thank you.
    Chairwoman Velazquez. We are not there yet.
    Mr. Nye.
    Mr. Nye. Thank you, Chairwoman Velazquez, for holding this 
important markup on legislation to update and improve the Small 
Business Innovation Research and Small Business Technology 
Transfer programs.
    I would also like to recognize Mr. Altmire, who is 
introducing the bill, as well as my colleagues, Mr. Bright, Ms. 
Halvorson, Mr. Schock, and Ranking Member Graves, for their 
contributions.
    SBIR and STTR are vital programs. The Enhancing Small 
Business Research and Innovation Act of 2009 will upgrade these 
already useful initiatives, so that they can perform even 
better for our country's small businesses. As Chairman of the 
Subcommittee on Contracting and Technology, I have held several 
hearings on SBIR and STTR. In those discussions, I have had a 
chance to talk to program participants from across the country, 
and their stories were not unlike the stories I heard just a 
few weeks ago.
    At the beginning of the month, I spoke to a group of more 
than 1,000 participants in the Navy's SBIR program. What those 
men and women told me is that R&D grants are critical to their 
businesses and essential to innovation. This is particularly 
true when it comes to the defense industry. That is an area of 
continuing importance, not just in terms of national security 
but also in our operations abroad.
    In the past, SBIR and STTR have helped small firms develop 
products to keep our soldiers safe. Take, for example, night 
vision goggles or technology for unmanned aviation. Were it not 
for SBIR and STTR, those critical breakthroughs may have never 
made it to market. In other words, these programs represent 
more than just research. When it comes to defense, they are 
bringing developments from the drawing board to the 
battlefield.
    But as of now, both SBIR and STTR are outdated and in need 
of improvement. The legislation we are marking up today will 
modernize and enhance these programs. In my home district, 
veterans make up nearly a quarter of the population, so I am 
especially pleased that this bill encourages program 
participation amongst our servicemen and women. After all, who 
better to pioneer new defense products than the people who have 
been out there on the front lines?
    SBIR and STTR are important tools for developing new 
products, but they are not just a means for invention. By 
sparking innovation, they mark the surest path to unlocking new 
markets, expanding new industries, and, most importantly, 
creating new jobs. H.R. 2965 is an important step towards 
lasting growth, and I look forward to its passage.
    I yield back. Thank you.
    Chairwoman Velazquez. Thank you. Any other member that 
wishes to be recognized? Mr. Schock.
    Mr. Schock. Thank you, Madam Chairman. I would, first, like 
to thank you, Madam Chairwoman, and Ranking Member Graves, for 
working to move this important piece of legislation through the 
Committee. I would also like to personally thank Mr. Nye for 
his work with me at the Subcommittee level to ensure that the 
process of not only reauthorizing, but also modernizing, the 
Small Business Innovation Research Program was done not only in 
a bipartisan fashion, but also with the input from those in the 
small business sector who utilize this important government 
program.
    Before this Committee today we have House Resolution 2965, 
the Enhancing Small Business Research and Innovation Act of 
2009. I am pleased that this legislation includes language I 
introduced in House Resolution 2772, the SBIR and STTR 
Enhancement Act. That language equips the SBIR program with 
important new tools to bring it more in line with the needs of 
small business owners in the 21st century.
    For example, language has been included which will for the 
first time since the program's inception increase the Phase 1 
and Phase 2 grant levels. Additionally, information flow 
between agencies and participants will be improved through the 
creation of an online database to properly study and measure 
the performance of businesses participating in the program. 
Included as well is the requirement for more timely 
solicitation and responses from participating agencies to the 
applicants seeking SBIR assistance.
    The changes this Committee is making here today will go a 
long way to ensuring that the SBIR program is continued to be 
used as a resource which helps small businesses bring their new 
and novel ideas to commercialization while also providing a 
value to our economy.
    Again, I would like to thank those members who have been 
influential in crafting this legislation. I urge its passage, 
and I yield back, Madam Chairwoman.
    Chairwoman Velazquez. Thank you. Any other member who 
wishes to be recognized? Ms. Halvorson.
    Ms. Halvorson. Thank you, Chairwoman Velazquez, for holding 
this morning's markup. I also want to thank Mr. Altmire for his 
leadership in moving today's legislation forward. I was proud 
to have the opportunity to contribute to this bill, 
particularly on an issue that hits close to home for me. 
Despite promising signs of recovery, rural economics still have 
a ways to go. In many parts of my district, unemployment 
continues to linger at 13 percent.
    In my home state of Illinois, and in rural regions across 
the country, small firms and working families are really 
struggling. The Enhancing Small Business Research and 
Innovation Act of 2009 modernizes and improves the SBIR and 
STTR programs. It also extends these initiatives to include 
entrepreneurs in rural areas and underrepresented parts of the 
population.
    While small business growth is important in any community, 
it is especially critical in underserved areas. That is why I 
work to include important outreach provisions in this bill. 
These measures will encourage entrepreneurship in places where 
it is currently lagging. By promoting innovation within these 
communities, H.R. 2965 will set them on a path to economic 
recovery. When most people hear the word ``innovation,'' they 
probably don't think of rural regions. But the truth is that 
these are the areas with the most room for growth.
    If we are going to rebuild our economy, then we will have 
to unlock new markets everywhere, from Silicon Valley to the 
Midwest heartland. This bill will do just that, and I look 
forward to its passage.
    I yield back.
    Chairwoman Velazquez. Any other member who wishes--on this 
side? Mr. Altmire.
    Mr. Altmire. Thank you, Madam Chairwoman. And before I 
begin, I would like to recognize the extraordinary 
contributions of Mr. Bright, Ms. Halvorson, Mr. Graves, and Mr. 
Schock. H.R. 2956 incorporates bills authored by each of them, 
and it is thanks to their contributions that we have such a 
strong bill before us today.
    This legislation is particularly timely given the current 
economy. Whenever our nation has bounced back from previous 
downturns, the key ingredient has always been the same: 
innovation. Innovative ideas spark new products, which generate 
a wave of creation and put us back on a path to prosperity. As 
we respond to the current recession, the Small Business 
Innovation Research Program and the Small Business Technology 
Transfer Program are two critical tools.
    They provide valuable seed money for entrepreneurs who are 
willing to explore untested concepts and ultimately develop new 
products. The legislation before us makes a number of important 
changes to the SBIR program. The bill broadens the types of 
businesses that participate.
    By expanding outreach to rural entrepreneurs as well as 
businesses headed by women and veterans, H.R. 2956 will bring 
SBIR research to areas of the country not traditionally 
considered hotbeds for R&D. This will mean new parts of the 
country and a more diverse set of firms will participate. This 
not only brings SBIR grant money and STTR partnerships to new 
regions of the country, but it expands the pool of talent from 
which the program can draw.
    Secondly, the bill targets resources towards bringing 
products to market. The initial Phase 1 research funded by SBIR 
is extraordinarily valuable. However, the greatest return on 
investment often comes when an idea is fully vetted, found to 
be workable, becomes a prototype, and finally is made 
commercially available or put to use in the federal 
marketplace.
    Under this bill, the SBIR and STTR programs will be focused 
on supporting the kind of work most likely to develop new 
products. Perhaps most important, this legislation helps firms 
participating in SBIR to attract capital. In 2003, an 
administrative ruling changed the rules governing how firms 
with venture capital backing might participate in the program, 
and that decision has stopped some of the most promising small 
businesses from receiving SBIR grants.
    In the current economic environment, it is difficult for 
small businesses to access financing under any situation, 
whether it be through venture capital or otherwise. We should 
be helping small businesses to raise capital, not penalizing 
those that do so. Restoring the SBIR rules to how they worked 
under the Clinton administration will further that goal.
    I have seen firsthand the great benefit that can come from 
venture capital investments. In my home region of Western 
Pennsylvania, we have had the opportunity to team up with 
businesses and areas like Cleveland, Ohio, to facilitate 
venture capital investments.
    This partnership has attracted over 80 venture capital 
funds to invest in more than 60 health care enterprises in this 
tech belt region. Many of these firms are doing cutting edge 
work but under the current regulations cannot participate in 
the SBIR program. Allowing firms like these to compete for SBIR 
grants will foster innovation and further accelerate job 
growth.
    Madam Chair, all of these changes to SBIR and STTR that are 
contained in the bill are important. They will ensure that 
these initiatives are up to date and not only meet the 
challenges of today but continue to foster innovation tomorrow.
    Small businesses are our nation's greatest innovators. The 
SBIR and STTR programs are just two ways that we can help them 
continue creating the jobs of the future. I look forward to 
working with you and the Committee as we move forward in 
strengthening these important programs.
    Thank you, Madam Chair.
    Chairwoman Velazquez. Thank you. The Committee now moves to 
consideration of H.R. 2965. The Clerk will report the title of 
the bill.
    The Clerk. To amend the Small Business Act with respect to 
the Small Business Innovation Research Program and the Small 
Business Technology Transfer Program, and for other purposes.
    Chairwoman Velazquez. I ask unanimous consent that the 
bill, in its entirety, be open for amendments at this time. 
Does any member seek recognition for the purpose of offering an 
amendment? Mr. Akin.
    Mr. Akin. Madam Chair, I have an amendment at the desk.
    [The Amendment offered by Mr. Akin is included in the 
appendix.]
    Chairwoman Velazquez. The Clerk will report the amendment.
    The Clerk. Amendment to H.R. 2965 offered by Mr. Akin. At 
the end of Section--
    Chairwoman Velazquez. I ask unanimous consent that the 
amendment be considered as read. Without objection, so ordered.
    Mr. Akin. Thank you.
    Chairwoman Velazquez. The gentleman is recognized for five 
minutes.
    Mr. Akin. Thank you, Madam Chair. This amendment is 
designed to limit the involvement of the Office of Advocacy in 
the operation of the programs that we are reauthorizing today, 
including the SBIR, STTR, and FAST programs. I am concerned 
that recent actions by the current administration demonstrate 
an effort to limit the primary statutory responsibilities of 
the Office of Advocacy.
    The legislative history of the office makes it clear that 
the office is an independent voice in the Federal Government 
for small business, and not an advocate for policies of the 
President, the Director of the Office of Management and Budget, 
or the SBA Administrator. The President has nominated an 
individual to be chief counsel with apparently stellar 
credentials in the fields of venture capital and technological 
innovation, but with no experience in the regulatory process or 
in advocating on federal policy issues that affect small 
business.
    I am concerned that the Office of Advocacy's primary 
responsibility will move from advocating on behalf of small 
businesses, especially in the context of regulatory matters, 
and into providing advice to the Administrator on SBIR, STTR, 
and FAST programs. My amendment ensures that the Office of 
Advocacy will not become an alternative Office of Technology, 
the office of the SBA the runs the SBIR, STTR, and FAST 
programs.
    This is not an ideal solution to ensure that the Office of 
Advocacy remains an independent voice on behalf of small 
business. But given the narrow scope of the legislation before 
the Committee, it is the only viable solution at this time.
    I would like to work with the Chairwoman on developing a 
more comprehensive solution to ensuring that the Office of 
Advocacy maintains its status as an independent federal voice 
for small business concerns. I urge my colleagues to support 
this amendment.
    And, Madam Chair, just to say that a couple of years ago I 
was chairman of a subcommittee. We had a Republican 
administration, and we passed legislation in a bi- partisan way 
to try to create a tremendous independence in this Office of 
Advocacy. And I think that was when Mr. Sullivan was in charge 
of it.
    And if you think about it, you have got one poor guy 
fighting every bureaucrat in the city of Washington, D.C., but 
it is important to have somebody that has a tremendous 
independence and a zeal to try to protect small businesses from 
overregulation and just writing rules and regulations that 
hamper small business and ruin the creation of jobs and 
prosperity.
    So I thank the Chairman for recognizing me. I would urge 
the adoption of the amendment. I yield back.
    Chairwoman Velazquez. Okay. The chair has been working with 
Mr. Akin, and at this point we are willing to accept--Mr. 
Graves--this amendment.
    Mr. Akin. Thank you.
    Chairwoman Velazquez. The question is on the Akin 
amendment. All those in favor say aye.
    Those opposed say no.
    In the opinion of the chair, the ayes have it. The ayes 
have it, and the amendment is agreed to.
    The chair now recognizes herself for the purpose of 
offering an amendment. I have an amendment at the desk. The 
Clerk will report the amendment.
    [The Amendment offered by Ms. Velazquez is included in the 
appendix.]
    The Clerk. Page 32, line 3, strike the period at the end 
and insert ``and the Office of Management and Budget.''
    Chairwoman Velazquez. I ask unanimous consent that the 
amendment be considered as read. Without objection, so ordered.
    Basically, what this amendment does is it adds another duty 
to the program, and it is an amendment that was passed by the 
Science and Technology Committee, and we are--this provision is 
long overdue, and I welcome the inclusion of this provision 
into the legislation.
    I urge adoption of the amendment. Are there any other 
members who seek to be recognized on the amendment? Seeing no 
other members seeking recognition, the question is on the 
Velazquez amendment. All those in favor say aye.
    All those opposed say no.
    In the opinion of the chair, the ayes have it, and the 
amendment is agreed to.
    Does any other member seek recognition for the purpose of 
offering an amendment?
    Mr. King. Madam Chair, I have an amendment at the desk.
    [The Amendment offered by Mr. King is included in the 
appendix.]
    Chairwoman Velazquez. Mr. King is recognized. The Clerk 
will report the amendment.
    The Counsel. Which amendment, sir?
    Mr. King. The amendment that goes to page 15, I believe it 
is, as designated number 86 I think.
    The Clerk. Page 15, beginning line 24, strike ``business 
concerns owned and controlled by women, small.'' Page 16, 
beginning line 2, strike ``and small business concerns owned 
and controlled by minorities.''
    Chairwoman Velazquez. I ask unanimous consent that the 
amendment be considered as read. Without objection, so ordered.
    The amendment--Mr. King is recognized for five minutes.
    Mr. King. Thank you, Madam Chair. And I want to start this 
out, I recognize that we likely have a legitimate philosophical 
disagreement on how to approach these issues. As I look at 
this--the underlying bill and evaluate its impact on Americans, 
it occurs to me that there is--I have a philosophical position 
that I have long held that we should guarantee equal 
opportunity for all, and special preference for none.
    And this bill, of course, sets aside women and minorities 
as part of it. Those are special preferences. That runs 
directly contrary to a deeply held conviction that I have, but 
I just make that point--and I don't intend to deliberate that. 
I think that is known. And I would rather focus that this 
amendment does this, that it sets aside, then, and reserves the 
resources and the programs for our disabled veterans in our 
underserved areas.
    And I think it is clear that the underserved areas have far 
less access, and we need to do more aggressive outreach to the 
underserved areas. And I think that is a unanimous position in 
here or it wouldn't be in the bill in the first place. And so I 
would like to focus those resources on the underserved areas, 
but also on our disabled veterans.
    And if there is any group in America that has paid a very 
high price for serving our country, and that needs and deserves 
and legitimately deserves the kind of support that this bill--
this underlying bill would direct to, it is our disabled 
veterans.
    So I would ask this Committee to view this amendment as an 
amendment that focuses the resources in the most essential 
places, that being in the underserved areas and our disabled 
veterans, and recognizing our philosophical disagreement with 
the categories that I am compelled to ask be removed from this 
bill, because there is no other way to write the amendment.
    And I think everybody understands the amendment and where I 
stand on it, and I would urge its adoption and yield back the 
balance of my time.
    Chairwoman Velazquez. The chair recognizes herself. And let 
me just say, Mr. King, I think that in this Committee we work 
in a bipartisan way. And I just want to say that these 
amendments were sent to our Committee at 10:00 this morning. We 
have a process for members to send to us the amendment.
    But in any case, we allow for the amendment to be offered. 
We do have an ideological difference on this one. The purpose 
of this bill is to widen, to broaden, the talent pool, and that 
includes women, minorities, and you don't mention veterans and 
rural areas that are also included in this bill. And it is the 
focus of this bill.
    The face of America is changing. We have to provide 
resources for more women to be able to participate, for 
minorities to be able to participate. The intent of this bill 
is not only to provide for small firms to have the resources to 
do the research and investigation and come up with products 
that could be commercialized, and this way creating jobs.
    So I am opposed to this amendment, and I would--
    Mr. King. Madam Chair?
    Chairwoman Velazquez. --ask for the members to vote against 
it.
    Mr. King. Would the gentlelady yield? As I listened to your 
position, which I respect, I am curious as to--I recall the 
majority opinion that was written by the United States Supreme 
Court in the University of Michigan cases of affirmative action 
written by Justice O'Connor, a woman on the Supreme Court. And 
I disagreed with her opinion, and yet I recall that she said--
she wrote in that opinion that perhaps there would be a time in 
the future, perhaps 25 years in the future, where we could back 
and revisit and where we would no longer justify preferences.
    And I would ask if you have entertained such a thought, or 
do you believe that--
    Chairwoman Velazquez. Mr. King?
    Mr. King. --in perpetuity?
    Chairwoman Velazquez. Would you yield?
    Mr. King. Yes.
    Chairwoman Velazquez. With all due respect--
    Mr. King. Thank you for yielding to me.
    Chairwoman Velazquez. --this has nothing to do with 
preferences. This has everything to do with outreach, to 
broaden the talent pool in this nation. What is wrong with 
that?
    Mr. King. If the gentlelady would yield. I would disagree 
with it having to do with preferences. It clearly labels women 
and minorities in the bill. So I am surprised at that response, 
but I understand the gentlelady's position. And I am just not--
I prefer not to press it further.
    Chairwoman Velazquez. Are there any other members who seek 
to be recognized on this amendment? Yes, Mr. Schrader.
    Mr. Schrader. Thank you, yes. Madam Chair, I totally agree 
with your position, and I would hope discriminating against 
women and minorities would not be a policy of this Committee.
    Thank you.
    Chairwoman Velazquez. Seeing no other--any other members 
who seek recognition? Seeing no other members seeking 
recognition, the question is on the King amendment. All those 
members in favor say aye.
    Those opposed say no.
    In the opinion of the chair, the nos have it.
    Is there any other member who seeks recognition for the 
purpose of offering an amendment? Mr. King is recognized.
    Mr. King. I have an amendment at the desk.
    [The Amendment offered by Mr. King is included in the 
appendix.]
    Chairwoman Velazquez. The Clerk will report the amendment.
    The Clerk. Page 21, line 7, strike the quotation mark and 
following period. Page 21--
    Chairwoman Velazquez. I ask unanimous consent that the 
amendment be considered as read. Without objection, so ordered. 
The gentleman is recognized for five minutes.
    Mr. King. Thank you, Madam Chair. This is an amendment that 
addresses the issue of the organization that is known 
collectively as ACORN. And it has been solidly reported with 
documented evidence underneath that and admitted by ACORN that 
they are a myriad of organizations. I name ACORN, but also 173 
other organizations that are affiliated with ACORN. And I am 
not able to gather them all together, because ACORN has become 
a spider web of organizations and affiliations that is 
insidious in its involvement in this country.
    They have received at least $53 million in taxpayers' 
money, and now, because of some actions of this Congress, may 
be eligible into categories of $8-1/2 billion all together. And 
this is an amendment that precludes ACORN from being a 
beneficiary of this program. And I recognize that it doesn't 
specify organizations, but neither can we define the 
organization called ACORN, because it is so broad and so 
insidious.
    And so my interest is that we are watching our election 
process be corrupted. We are watching many parts of our 
business world feel this reach that comes. And I have been 
calling for months now for an investigation of ACORN, the 
congressional investigation of ACORN, for a Department of 
Justice investigation of ACORN. We do have I think a growing 
groundswell of interested Americans that are pulling 
information together and aggregating it.
    But I am committed, as many members of the now majority 
party were committed, to plugging into our legislation the 
Davis-Bacon wage scale, which I clearly object to, and to piece 
of legislation after piece of legislation.
    I am committed to no longer allowing any federal funds from 
getting into ACORN's coffers until such time as there is a 
completed investigation, a forensic analysis, and we have the 
confidence the parts that may remain at the end of that 
investigation are the legitimate components that can actually 
help and enhance the American economy and the American society.
    And so this is an amendment that simply states that ACORN 
and its affiliates will not be--
    Chairwoman Velazquez. Would the gentleman yield?
    Mr. King. --a beneficiary of this program. And I would 
yield to the gentlelady.
    Chairwoman Velazquez. If it is your knowledge that ACORN 
has received any SBIR grant?
    Mr. King. It is not to my knowledge.
    Chairwoman Velazquez. Thank you. Okay.
    Mr. King. It is to my endeavor that they not receive it.
    Chairwoman Velazquez. Thank you for yielding.
    Mr. King. And I would just simply urge the adoption of this 
amendment, and I would yield back the balance of my time.
    Chairwoman Velazquez. The chair recognizes herself for the 
purpose of opposing this amendment.
    Mr. King, I understand that there are issues with some 
members regarding ACORN. But ACORN is a housing group. This is 
not the vehicle for anyone to go after ACORN participating on 
resources from the Federal Government. This is the Small 
Business Committee. So to me, there is no point to offer an 
amendment to prohibit a group that is ineligible to participate 
under the SBIR or STTR program.
    To my knowledge, ACORN is not in the business of research 
and technology. They are a housing group. So for that reason 
alone, I oppose this amendment. I consider this is not the 
place. That amendment should be brought up in the Housing 
Subcommittee Financial Services.
    Any member who seeks recognition? Mr. Akin.
    Mr. Akin. I would just yield time to the gentleman from 
Iowa, so he could respond.
    Mr. King. I thank the gentleman from Missouri for yielding, 
and I agree that ACORN is a housing group. But they are much, 
much more than a housing group. They are the organization that 
has admitted to producing over 400,000 fraudulent voter 
registration forms. They are an organization that has been 
announced within the last couple of days that it is their 
endeavor to broaden their reach. And ``broaden their reach'' at 
least implies into every aspect of American life where they can 
have some type of political influence.
    They are signed on as a partner for the United States 
Census where we are sitting in a position now where we are--the 
great risk of America's elections being undermined now may be 
transferred into the question of legitimacy of the United 
States Census. I don't know all of the places where ACORN 
reaches, and I don't think we can know that either.
    I want to assure that we are not funding an organization 
that is undermining our freedoms, and I think we need to put 
that barker in place at every single spot that we can. And so I 
urge adoption of my amendment, and I would yield back to the 
gentleman from Missouri.
    Chairwoman Velazquez. Would you yield?
    Mr. Akin. I yield back my time.
    Chairwoman Velazquez. Okay. Let me just respond to the 
gentleman's assertion that census or voter registration has 
anything to do with the SBIR program or the STTR program. And 
for you to say that you don't know if they do that, I guess 
that any member who intends to offer an amendment will do the 
research to determine whether or not the amendment is germane 
to the issue or the subject at hand.
    If there is any other member who seeks to be recognized? 
Mr. Shuler.
    Mr. Shuler. Thank you, Madam Chair. You know, this is, 
what, the third year I have been on the Committee. And, you 
know, I think we have finally gotten to partisan politics on 
the Committee, and I think that is very unfortunate, when the 
fact of the matter is that small businesses are trying to 
continue to grow. And to put partisanship in this is kind of 
embarrassing into this Committee, and I just don't think it is 
the time and place for that. There is other Committees that can 
be doing that.
    But, Madam Chair, I continue to thank you for your 
leadership. And Ranking Member Graves, obviously, in his 
opening statement talked about working together and to show up 
with amendments like this. I have got all the respect in the 
world for Mr. King, but that is not the way we do things on 
this Committee.
    I yield back.
    Chairwoman Velazquez. Are there any other members who wish 
to be recognized--
    Mr. Schrader. Yes, Madam--
    Chairwoman Velazquez. --on this amendment? Mr. Schrader.
    Mr. Schrader. Thank you, Madam Chairman. Yes, I agree. I 
put myself in the camp with Congressman Shuler that I enjoy the 
bipartisan nature of this Committee. But I guess I would make a 
motion to table this amendment, because it has come in so late, 
and give ourselves due consideration to look at it thoroughly 
and give me time to develop a list of right wing extremist 
organizations that might also be prohibited organizations under 
this amendment.
    Chairwoman Velazquez. Any other member? Ms. Kirkpatrick.
    Ms. Kirkpatrick. Thank you, Madam Chair. I, too, appreciate 
the bipartisan work on this Committee. Having gotten this 
amendment just a few minutes ago, and reading through it, I 
really don't have enough information to vote intelligently on 
it. And I just want to point out some of the organizations that 
are in this list.
    For instance, there is Citizens Consulting, Inc., Flagstaff 
Broadcast Foundation, the Hospitality Hotel and Restaurant 
Organization Council, the Neighbors of Althea Ray, the 
Neighbors of Maria Torres, the Neighbors of Ted Thomas. I don't 
know who those folks are. I surely would hope that, should an 
amendment ever come before this Committee that included the 
Neighbors of Ann Kirkpatrick, that we would look at that and 
hear from them before we voted. So I am opposed to it.
    Thank you.
    Chairwoman Velazquez. Any other members seeking 
recognition? Seeing no other members, the question is on Mr. 
King's amendment. All those in favor say aye.
    Those opposed?
    Mr. Schrader. Madam Chair?
    Chairwoman Velazquez. In the opinion of--
    Mr. Schrader. Can we--point of order. I actually move to 
table the amendment. Is that acceptable to the chair?
    Chairwoman Velazquez. No. We are going to proceed and vote.
    Mr. Schrader. Okay. That is fine.
    Chairwoman Velazquez. In the opinion of the chair, the ayes 
have it.
    Mr. Ellsworth. Madam Chair, can we--would it be out of--to 
take a recorded vote? I should have spoken on the last 
amendment and asked for a recorded vote. I would like a 
recorded vote on this amendment.
    Chairwoman Velazquez. Okay. A recorded vote has been 
requested. The Clerk will call the vote.
    The Clerk. Ms. Velazquez.
    Chairwoman Velazquez. No.
    The Clerk. Ms. Velazquez votes no.
    Mr. Moore.
    Mr. Moore. No.
    The Clerk. Mr. Moore votes no.
    Mr. Shuler.
    Mr. Shuler. No.
    The Clerk. Mr. Shuler votes no.
    Ms. Dahlkemper.
    Ms. Dahlkemper. No.
    The Clerk. Ms. Dahlkemper votes no.
    Mr. Schrader.
    Mr. Schrader. No.
    The Clerk. Mr. Schrader votes no.
    Ms. Kirkpatrick.
    Ms. Kirkpatrick. No.
    The Clerk. Ms. Kirkpatrick votes no.
    Mr. Nye.
    Mr. Nye. No.
    The Clerk. Mr. Nye votes no.
    Mr. Michaud.
    Mr. Michaud. No.
    The Clerk. Mr. Michaud votes no.
    Ms. Bean.
    [No response.]
    Mr. Lipinski.
    [No response.]
    Mr. Altmire.
    Mr. Altmire. No.
    The Clerk. Mr. Altmire votes no.
    Ms. Clarke.
    Ms. Clarke. No.
    The Clerk. Ms. Clarke votes no.
    Mr. Ellsworth.
    Mr. Ellsworth. No.
    The Clerk. Mr. Ellsworth votes no.
    Mr. Sestak.
    [No response.]
    Mr. Bright.
    Mr. Bright. Yes. Yes.
    The Clerk. Mr. Bright votes yes.
    Mr. Griffith.
    Mr. Griffith. No.
    The Clerk. Mr. Griffith votes no.
    Ms. Halvorson.
    Ms. Halvorson. No.
    The Clerk. Ms. Halvorson votes no.
    Mr. Graves.
    Mr. Graves. Yes.
    The Clerk. Mr. Graves votes yes.
    Mr. Bartlett.
    [No response.]
    Mr. Akin.
    Mr. Akin. Yes.
    The Clerk. Mr. Akin votes yes.
    Mr. King.
    Mr. King. Yes.
    The Clerk. Mr. King votes yes.
    Mr. Westmoreland.
    [No response.]
    Mr. Gohmert.
    [No response.]
    Ms. Fallin.
    Ms. Fallin. Yes.
    The Clerk. Ms. Fallin votes yes.
    Mr. Buchanan.
    [No response.]
    Mr. Luetkemeyer.
    Mr. Luetkemeyer. Yes.
    The Clerk. Mr. Luetkemeyer votes yes.
    Mr. Schock.
    Mr. Schock. Yes.
    The Clerk. Mr. Schock votes yes.
    Mr. Thompson.
    Mr. Thompson. Yes.
    The Clerk. Mr. Thompson votes yes.
    Mr. Coffman.
    Mr. Coffman. Yes.
    The Clerk. Mr. Coffman votes yes.
    Chairwoman Velazquez. The Clerk will report the vote.
    The Clerk. Thirteen ayes. Sorry. Nine ayes, 13 nos.
    Chairwoman Velazquez. The amendment is not adopted.
    Does any member seek recognition for the purpose of 
offering an amendment? Seeing no amendments, the question is--
    Mr. King. Madam Chair?
    Chairwoman Velazquez. Yes.
    Mr. King. I move to strike the last word in the bill.
    Chairwoman Velazquez. The gentleman is recognized.
    Mr. King. Thank you, Madam Chair. I just would like to 
clear the air a little bit here in the Committee. And it is not 
my intention to create animosity here in this bipartisan 
Committee, and I want to congratulate you and Mr. Graves and 
all of those who have set this tone that this Committee does 
work for the best interest of small business in America.
    And in response to Mr. Shuler and others, I want to point 
out that this debate came here because it has been shut down in 
the Rules Committee. The Rules Committee has shut down our 
floor debate, and our avenues for debate are no longer the 
legitimate ones that we had in Committee and on the floor. And 
so this is a result of what takes place with the--I think the 
dramatic change in our rules and debate process, on the floor 
of the House, in the Rules Committee.
    And it has reflected itself back here, because it is the 
only avenue. I regret that. But as a member who has a franchise 
to represent my district, I have an obligation to defend them 
wherever I can.
    And so I would yield back the balance of my time, and I 
appreciate the opportunity this morning.
    Chairwoman Velazquez. Let me respond, Mr. King. I have no 
problem with your policy. I have no problem with you offering 
amendments. I do have a problem with the fact that we have 
conducted five hearings. That briefing has been provided to all 
the staff of every--Republicans and Democrats. If you have a 
problem with the Rules Committee, it is the Rules Committee, 
not this Committee. And I don't appreciate for amendments to be 
offered that really do not--they are not germane to the bill, 
to the legislation, and look how much time we have wasted here 
in two amendments that have no place in this legislation.
    And I have worked diligently in a bipartisan way. And if 
you have a policy-related issue that is germane to the 
legislation, I have no problem with you offering those 
amendments.
    And with that, seeing no amendments, the question is on 
reporting the bill H.R. 2965, as amended. All those in favor 
say aye.
    Those opposed say no.
    In the opinion of the chair, the ayes have it.
    Mr. Shuler. Madam Chair, I would ask for a recorded vote.
    Chairwoman Velazquez. A recorded vote has been requested by 
Mr. Shuler. The Clerk will call the vote, the roll.
    The Clerk. Ms. Velazquez.
    Chairwoman Velazquez. Aye.
    The Clerk. Ms. Velazquez votes aye.
    Mr. Moore.
    Mr. Moore. Aye.
    The Clerk. Mr. Moore votes aye.
    Mr. Shuler.
    Mr. Shuler. Aye.
    The Clerk. Mr. Shuler votes aye.
    Ms. Dahlkemper.
    Ms. Dahlkemper. Aye.
    The Clerk. Ms. Dahlkemper votes aye.
    Mr. Schrader.
    Mr. Schrader. Aye.
    The Clerk. Mr. Schrader votes aye.
    Ms. Kirkpatrick.
    Ms. Kirkpatrick. Aye.
    The Clerk. Ms. Kirkpatrick votes aye.
    Mr. Nye.
    Mr. Nye. Aye.
    The Clerk. Mr. Nye votes aye.
    Mr. Michaud.
    Mr. Michaud. Aye.
    The Clerk. Mr. Michaud votes aye.
    Ms. Bean.
    [No response.]
    Mr. Lipinski.
    [No response.]
    Mr. Altmire.
    Mr. Altmire. Aye.
    The Clerk. Mr. Altmire votes aye.
    Ms. Clarke.
    Ms. Clarke. Aye.
    The Clerk. Ms. Clarke votes aye.
    Mr. Ellsworth.
    Mr. Ellsworth. Aye.
    The Clerk. Mr. Ellsworth votes aye.
    Mr. Sestak.
    [No response.]
    Mr. Bright.
    Mr. Bright. Yes. Yes, yes.
    The Clerk. Mr. Bright votes yes.
    Mr. Griffith.
    Mr. Griffith. Aye.
    The Clerk. Mr. Griffith votes aye.
    Ms. Halvorson.
    Ms. Halvorson. Aye.
    The Clerk. Ms. Halvorson votes aye.
    Mr. Graves.
    Mr. Graves. Aye.
    The Clerk. Mr. Graves votes aye.
    Mr. Bartlett.
    [No response.]
    Mr. Akin.
    Mr. Akin. Aye.
    The Clerk. Mr. Akin votes aye.
    Mr. King.
    Mr. King. Aye.
    The Clerk. Mr. King votes aye.
    Mr. Westmoreland.
    [No response.]
    Mr. Gohmert.
    [No response.]
    Ms. Fallin.
    Ms. Fallin. Aye.
    The Clerk. Ms. Fallin votes aye.
    Mr. Buchanan.
    [No response.]
    Mr. Luetkemeyer.
    Mr. Luetkemeyer. Aye.
    The Clerk. Mr. Luetkemeyer votes aye.
    Mr. Schock.
    Mr. Schock. Aye.
    The Clerk. Mr. Schock votes aye.
    Mr. Thompson.
    Mr. Thompson. Aye.
    The Clerk. Mr. Thompson votes aye.
    Mr. Coffman.
    Mr. Coffman. Aye.
    The Clerk. Mr. Coffman votes aye.
    Chairwoman Velazquez. Are there any other members seeking 
to record or change their vote? Seeing none, the Clerk will 
report the vote.
    The Clerk. Twenty-two ayes.
    Chairwoman Velazquez. The ayes have it. H.R. 2965 is 
adopted and ordered reported as amended.
    This concludes the Committee's business for today. I ask 
unanimous consent that the Committee be authorized to correct 
section numbers, punctuation, cross references, and to make 
necessary technical and conforming corrections on the bill 
considered today. Without objection, so ordered.
    This markup is adjourned.
    [Whereupon, at 1:59 p.m., the Committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0469.001
    
    [GRAPHIC] [TIFF OMITTED] T0469.002
    
    [GRAPHIC] [TIFF OMITTED] T0469.003
    
    [GRAPHIC] [TIFF OMITTED] T0469.004
    
    [GRAPHIC] [TIFF OMITTED] T0469.005
    
    [GRAPHIC] [TIFF OMITTED] T0469.006
    
    [GRAPHIC] [TIFF OMITTED] T0469.007
    
    [GRAPHIC] [TIFF OMITTED] T0469.008
    
    [GRAPHIC] [TIFF OMITTED] T0469.009
    
    [GRAPHIC] [TIFF OMITTED] T0469.010
    
    [GRAPHIC] [TIFF OMITTED] T0469.011
    
    [GRAPHIC] [TIFF OMITTED] T0469.012
    
    [GRAPHIC] [TIFF OMITTED] T0469.013
    
    [GRAPHIC] [TIFF OMITTED] T0469.014
    
    [GRAPHIC] [TIFF OMITTED] T0469.015
    
    [GRAPHIC] [TIFF OMITTED] T0469.016
    
    [GRAPHIC] [TIFF OMITTED] T0469.017
    
    [GRAPHIC] [TIFF OMITTED] T0469.018
    
    [GRAPHIC] [TIFF OMITTED] T0469.019
    
    [GRAPHIC] [TIFF OMITTED] T0469.020
    
    [GRAPHIC] [TIFF OMITTED] T0469.021
    
    [GRAPHIC] [TIFF OMITTED] T0469.022
    
    [GRAPHIC] [TIFF OMITTED] T0469.023
    
    [GRAPHIC] [TIFF OMITTED] T0469.024
    
    [GRAPHIC] [TIFF OMITTED] T0469.025
    
    [GRAPHIC] [TIFF OMITTED] T0469.026
    
    [GRAPHIC] [TIFF OMITTED] T0469.027
    
    [GRAPHIC] [TIFF OMITTED] T0469.028
    
    [GRAPHIC] [TIFF OMITTED] T0469.029
    
    [GRAPHIC] [TIFF OMITTED] T0469.030
    
    [GRAPHIC] [TIFF OMITTED] T0469.031
    
    [GRAPHIC] [TIFF OMITTED] T0469.032
    
    [GRAPHIC] [TIFF OMITTED] T0469.033
    
    [GRAPHIC] [TIFF OMITTED] T0469.034
    
    [GRAPHIC] [TIFF OMITTED] T0469.035
    
    [GRAPHIC] [TIFF OMITTED] T0469.036
    
    [GRAPHIC] [TIFF OMITTED] T0469.037
    
    [GRAPHIC] [TIFF OMITTED] T0469.038
    
    [GRAPHIC] [TIFF OMITTED] T0469.039
    
    [GRAPHIC] [TIFF OMITTED] T0469.040
    
    [GRAPHIC] [TIFF OMITTED] T0469.041
    
    [GRAPHIC] [TIFF OMITTED] T0469.042
    
    [GRAPHIC] [TIFF OMITTED] T0469.043
    
    [GRAPHIC] [TIFF OMITTED] T0469.044
    
    [GRAPHIC] [TIFF OMITTED] T0469.045
    
                                 <all>

</pre></body></html>
